Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 CENTERS FOR MEDICARE &
MEDICAID SERVICES AUDITS OF
  MEDICARE PART D BIDS




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     OEI-05-07-00560
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                             S U M M A R Y


                  OBJECTIVE
                  1. To assess the results of bid audits conducted by the Centers for
                     Medicare & Medicaid Services (CMS).

                  2. To assess CMS’s use of bid and financial audits to oversee Part D
                     bidding.


                  BACKGROUND
                  The Medicare prescription drug program, known as Medicare Part D,
                  provides an optional drug benefit to Medicare beneficiaries. CMS
                  contracts with private insurance companies, known as plan sponsors, to
                  provide prescription drug coverage for beneficiaries who choose to enroll
                  in the program.

                  For a plan sponsor to offer a prescription drug plan, CMS must approve
                  the plan sponsor’s bid amount. The bid amount is the plan sponsor’s
                  per-member, per-month estimated cost of providing drug coverage. To
                  calculate the bid amount, plan sponsors apply actuarial assumptions to
                  base period data, which are actual data from a previous year of
                  providing drug coverage.

                  Bid amounts are used to determine payments to plan sponsors. The
                  beneficiary pays a percentage of the bid amount through premium
                  payments. CMS pays a percentage of the bid amount through direct
                  subsidy payments.

                  CMS currently uses bid audits as part of its oversight of Medicare
                  Part D bidding. In addition, according to CMS staff, CMS intends to
                  supplement its oversight with information gathered from financial
                  audits. Bid audits are in-depth reviews of the actuarial assumptions
                  used to calculate the bid amount. Financial audits verify the accuracy
                  of plan sponsors’ financial data. Although financial audits do not focus
                  on bid amounts, they do review base period data used to determine the
                  bid amount.

                  There are two types of bid audit findings: material findings and
                  observations. Material findings are significant issues that, if corrected,
                  would affect payments or beneficiary benefits. Observations are all
                  other nonmaterial findings.

                  To assess the results of Part D bid audits, we analyzed bid audit
                  material findings and observations from plan years 2006 and 2007. To
                  assess CMS’s use of audits to oversee Part D bidding, we reviewed CMS

OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                      i
E X E C U T I V E                S U            M M A R Y


                   guidance regarding bid audits and financial audits. To understand how
                   CMS audits Part D bids, we conducted structured interviews with CMS
                   staff.


                   FINDINGS
                   One-quarter of all bid audits completed for plan years 2006 and
                   2007 identified at least one material finding. For plan years 2006 and
                   2007, CMS’s Office of the Actuary (OACT) completed 103 bid audits, of
                   which 25 percent identified at least one material finding. The largest
                   number of bid audits identified material findings involving
                   nonpharmacy costs and methodology errors.
                   Any material finding could negatively affect the Part D program,
                   whether it reveals the bid amount as potentially too high or too low. If a
                   material finding shows that the bid amount was too high, then the
                   Government, through its direct subsidy payments, and beneficiaries,
                   through premium payments, would both end up paying too much for
                   Part D coverage. On the other hand, material findings that reveal the
                   bid amount to be too low could reduce fair competition among plan
                   sponsors.
                   Bid audits are not designed to result in adjustments to bid amounts.
                   CMS does not use bid audit findings to adjust plan sponsors’ bid
                   amounts, payments to plan sponsors, or beneficiary premiums. In
                   addition, bid audits are not designed to lead to sanctions against plan
                   sponsors. Instead, CMS uses bid audits to influence the submission,
                   review, and audit of future bid amounts. According to CMS staff, using
                   bid audits to adjust bid amounts is problematic because bid audits are
                   completed after CMS has already signed contracts with the plan
                   sponsors and because some of the material findings cannot be
                   quantified. Without any penalty to plan sponsors for material findings
                   identified in bid audits, their deterrent effect is limited.
                   As of April 2008, only 4 percent of the required financial audits of
                   plan year 2006 had begun. CMS is statutorily required to complete
                   financial audits of at least one-third of plan sponsors. However, as of
                   April 2008, CMS had contracted for less than half and started only
                   seven of the required number of financial audits that would review the
                   base period data used to calculate the bid amount for plan year 2008.

                   Without financial audits, CMS will not be able to ensure the accuracy of
                   the base period data used as the foundation of the bid amount. Bid
                   audits focus on actuarial assumptions and not the accuracy of base

 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                    ii
E X E C U T I V E                S U            M M A R Y


                   period data. Financial audits review the accuracy of base period data,
                   but it is unknown when they will be completed. Delaying financial
                   audits increases the risk that plan sponsors will use inaccurate and
                   unsupported base period data to estimate the cost of providing Part D
                   benefits in future plan years.


                   RECOMMENDATIONS
                   CMS should modify the bid audit process to hold plan sponsors
                   more accountable for material findings identified in bid audits.
                   Although CMS uses bid audits to improve future bid submissions,
                   modifying the bid audit process could provide more effective oversight of
                   plan sponsors’ bids. To accomplish this, CMS could: (1) modify the way
                   it responds to current bid audit findings and/or (2) modify the entire bid
                   audit process.

                   CMS could modify the way it responds to current bid audit findings by
                   developing alternative methods to hold plan sponsors accountable. In
                   addition, CMS could modify the entire bid audit process to: (1) identify
                   instances in which errors are misrepresentations and (2) quantify errors
                   that affect payments to plan sponsors. Modifying the bid audit process
                   would enable CMS to pursue stronger enforcement and corrective
                   actions.
                   CMS should conduct the required number of financial audits in a
                   timely manner. Although financial audits are not focused primarily on
                   the bid amount, they can provide important oversight regarding the
                   accuracy of the base period data used to calculate the bid amount. In
                   addition, to make financial audit findings most useful, any findings
                   related to the base period data that a plan sponsor relied upon to
                   estimate the cost of providing Part D benefits should be provided to
                   OACT before bid amounts are approved.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS stated that it will carefully consider our recommendation to
                   modify the bid audit process to hold Part D sponsors more accountable
                   for material findings. In addition, CMS agreed that it should conduct
                   the required financial audits in a timely manner. OIG continues to
                   recommend that CMS strengthen its oversight and enforcement
                   approach to hold Part D sponsors accountable for their bid submissions.


 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                    iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    One-quarter of bid audits identified a material finding . . . . . . . . 10

                    Bid audits are not designed to adjust bid amounts . . . . . . . . . . . . 14

                    Only 4 percent of financial audits have begun. . . . . . . . . . . . . . . . 17



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                   Agency Comments and Office of Inspector General Response. . . . 23



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                    A: Plan Year 2009 Bid-Pricing Tool. . . . . . . . . . . . . . . . . . . . . . . . 25

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
I N T R O D        U C T      I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    1. To assess the results of bid audits conducted by the Centers for
                       Medicare & Medicaid Services (CMS).

                    2. To assess CMS’s use of bid and financial audits to oversee Part D
                       bidding.


                    BACKGROUND
                    The Medicare prescription drug program, known as Medicare Part D,
                    provides an optional drug benefit to Medicare beneficiaries. 1 CMS
                    contracts with private insurance companies, known as plan sponsors, to
                    provide prescription drug coverage for beneficiaries who choose to enroll
                    in the program. These sponsors may offer a stand-alone prescription
                    drug plan (PDP), or they may offer prescription drug coverage as part of
                    a managed care plan, known as a Medicare Advantage Prescription
                    Drug Plan (MA-PD). As of January 2008, more than 25 million
                    beneficiaries were enrolled in an MA-PD or a PDP (hereafter referred to
                    collectively as plans). 2
                    For a plan sponsor to offer a plan, CMS must approve the plan sponsor’s
                    bid submission. 3 The bid submission, which is submitted before the
                    beginning of the plan year, 4 includes a description of the benefit
                    package, a list of drugs on the formulary, a list of network pharmacies,
                    and the bid amount. 5
                    The Part D Bid Amount
                    The bid amount is the plan sponsor’s per-member, per-month estimated
                    cost of providing drug coverage. 6 Using instructions from CMS, plan
                    sponsors calculate the bid amount using the bid-pricing tool, which is a

                      1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA),

                    P.L. No. 108-173, Social Security Act, § 1860D, 42 U.S.C. § 1395w.
                      2 “2008 Enrollment Information.” Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/. Accessed on April 16, 2008.
                      3 42 CFR § 423.272(b).
                      4 A plan year runs from January 1 to December 31.
                      5 Section 1860D-11(b) of the Social Security Act. CMS, “Solicitation for Applications for
                    New Prescription Drug Plans (PDP) Sponsors.” Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/04_RxContracting_ApplicationGuidan
                    ce.asp#TopOfPage. Accessed on November 1, 2007.
                      6 For this report, the term “bid amount” refers to the standardized bid amount, which is
                    an estimate of the average monthly revenue that the plan sponsor needs to provide the
                    basic benefit per beneficiary. 42 CFR § 423.265(c).



 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                            1
I N T R O D        U C T          I O N


                    collection of spreadsheets developed by CMS. 7 Using the bid-pricing
                    tool, plan sponsors estimate bid elements that include utilization, drug
                    costs, and administrative fees, and the bid-pricing tool calculates the bid
                    amount. See the Appendix for an example of the most recently
                    approved bid-pricing tool.

                    Actuarial Assumptions and Bid Amounts. To estimate these bid elements,
                    plan sponsors apply actuarial assumptions to base period data, which
                    are actual utilization, drug cost, and administrative fee data from a
                    previous year of providing drug coverage. Plan year 2008 was the first
                    year in which CMS expected most plan sponsors to use base period data
                    when determining bid amounts. Because Part D was new in 2006, CMS
                    did not expect most plan sponsors to have experience providing similar
                    drug coverage when estimating bid elements for plan years 2006 and
                    2007. 8 When a plan sponsor does not have base period data, the plan
                    sponsor uses reasonable assumptions of utilization and costs instead. 9
                    As a result, most plan sponsors estimated bid elements based on
                    assumptions alone for plan years 2006 and 2007.

                    When applying actuarial assumptions to base period data, a plan
                    sponsor’s actuaries must follow CMS’s instructions and the Actuarial
                    Standards of Practice (ASOP). 10 The ASOP “provide practicing
                    actuaries with a basis for assuring that their work will conform to
                    appropriate practices.” 11 CMS instructs plan sponsors to follow
                    applicable ASOP. 12 In particular, CMS lists the following ASOP:
                    •        ASOP No. 5, Incurred Health and Disability Claims;

                    •        ASOP No. 8, Regulatory Filings for Health Plan Entities;

                    •        ASOP No. 16, Actuarial Practice Concerning Health Maintenance
                             Organizations and Other Managed-Care Health Plans;

                    •        ASOP No. 23, Data Quality;


                        7 CMS, “Instructions for Completing the Medicare Prescription Drug Plan Bid Form for

                    Contract Year 2006,” April 2005, p. 3.
                        8 Ibid.
                        9 Ibid.
                      10 CMS, “Instructions for Completing the Medicare Prescription Drug Plan Bid Form for
                    Contract Year 2008,” April 2007, p. 54.
                       11 Actuarial Standards Board, “About the Actuarial Standards Board.” Available online
                    at http://www.actuarialstandardsboard.org/aboutasb.asp. Accessed on March 25, 2008.
                      12 CMS, “Instructions for Completing the Medicare Prescription Drug Plan Bid Form for
                    Contract Year 2008,” April 2007, p. 54.



 OEI-05-07-00560    CMS AUDITS    OF   M E D I C A R E PA R T D B I D S                                        2
I N T R O D        U C T        I O N


                    •       ASOP No. 25, Credibility Procedures Applicable to Accident and
                            Health, Group Term Life, and Property/Casualty Coverage;

                    •       ASOP No. 31, Documentation in Health Benefit Plan Ratemaking;
                            and

                    •       ASOP No. 41, Actuarial Communications. 13
                    The bid amount and bid elements must be certified by a qualified
                    actuary who is a member of the American Academy of Actuaries. 14
                    Part D Payments Based on the Bid Amounts. Bid amounts are the basis
                    for beneficiary premiums and Government subsidies. Together,
                    beneficiaries and CMS share the cost of the Part D benefit. Most
                    beneficiaries are responsible for paying a monthly premium. 15 CMS, on
                    the other hand, pays a portion of basic drug coverage for all
                    beneficiaries through a prospective direct subsidy payment to plan
                    sponsors.

                    CMS bases beneficiary premiums and direct subsidy payments on each
                    plan’s bid amount and the national average monthly bid amount. The
                    national average monthly bid amount, calculated by CMS, is the
                    weighted average of approved bid amounts for all plans. 16
                    To calculate beneficiary premiums, CMS first sets the base beneficiary
                    premium, which is a percentage of the national average monthly bid
                    amount. 17 If a plan’s bid amount is higher than the national average
                    monthly bid amount, then the beneficiary’s premium will be higher than
                    the base premium by the amount of the difference. If a plan’s bid
                    amount is lower than the national average monthly bid amount, then
                    the beneficiary’s premium will be lower than the base premium by the


                      13 ASOP No. 41 was added to CMS’s list of applicable ASOP in its bid instructions to plan

                    sponsors for plan year 2008.
                        14 42 CFR § 423.265(c)(3).
                        15 42 CFR § 286(e) (explaining that certain low-income beneficiaries are eligible to
                    receive assistance to pay some or all of the premium).
                        16 The approved standardized bid amounts for the following types of plans are not
                    included in the calculation of the national average monthly bid amount: Medical savings
                    account plans, Medicare Advantage private fee-for-service plans, special needs plans,
                    all-inclusive care for the elderly programs under section 1894, “fallback” prescription drug
                    plans, and plans established through reasonable cost reimbursement contracts under
                    section 187(h) of the Social Security Act.
                        17 Sections 1860D-13(a)(2) and (3) of the Social Security Act mandate base beneficiary
                    premium is calculated. In practice, it is equal to at how the least 25.5 percent of the
                    national average monthly bid amount.



 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                             3
I N T R O D        U C T      I O N


                    amount of the difference. For example, if the national average monthly
                    bid amount is equal to $100 and the base beneficiary premium is $26,
                    then a plan with a bid amount of $90 ($10 less than the national
                    average monthly bid amount) would have a beneficiary premium of $16.

                    To calculate direct subsidy payments, CMS subtracts the beneficiary
                    premium from the plan’s bid amount adjusted for the health status of
                    the beneficiary. 18 With the health status adjustment, CMS pays more
                    money per month for sicker beneficiaries compared to what it pays for
                    healthier beneficiaries.

                    Reconciliation. As part of reconciliation, CMS finalizes the direct
                    subsidy payments based on updated information about the health status
                    of enrolled beneficiaries. This process begins 6 months after the close of
                    the plan year. 19 In addition, CMS uses the finalized direct subsidy
                    payments to determine whether risk-sharing payments are required.

                    Risk sharing. The MMA established risk corridors to allow the Federal
                    Government and plan sponsors to share the profits and losses
                    associated with providing the benefit. 20
                    To determine whether risk-sharing payments are required, CMS
                    compares the plan’s “target amount” to the plan’s allowable
                    risk-corridor costs. 21 The target amount is the sum of the prospective
                    direct subsidy payments and the beneficiary premiums, both of which
                    are based on the bid amount, reduced by administrative costs. In
                    general, a plan’s allowable risk-corridor costs are its Part D drug costs
                    minus direct and indirect remuneration from drug manufacturers and
                    the reinsurance subsidy. 22 Depending on the difference between the



                       18 Adjustments are made according to the health status of the beneficiary. CMS assigns

                    a risk score to each enrolled beneficiary based on the individual’s health status and
                    demographic characteristics.
                      19 42 CFR § 423.343.
                      20 MMA, P.L. No. 108-173 § 115, Social Security Act, § 1860D-15(e), 42 U.S.C.
                    § 1395w-115(e).
                       21 Allowable risk corridor costs exclude administrative costs and subtract a proportion of
                    plan sponsors’ direct and indirect remuneration. 42 CFR § 423.336(a)(1).
                      22 The reinsurance subsidy covers the Federal Government’s share of drug costs for
                    beneficiaries who have reached catastrophic coverage. Within catastrophic coverage,
                    beneficiaries contribute approximately 5-percent coinsurance toward their drug costs. Of
                    the remaining 95 percent of drug costs, plan sponsors are responsible for approximately
                    15 percent and Medicare pays 80 percent. In 2006, catastrophic coverage began when a
                    beneficiary’s out-of-pocket spending reached $3,850. 42 CFR § 423.104(d)(5).



 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                          4
I N T R O D        U C T     I O N


                    target amount and the plan’s allowable risk-corridor costs, CMS may
                    owe money to the sponsor or the sponsor may owe money to CMS. 23
                    In 2006 and 2007, if a plan’s allowable risk-corridor costs were at least
                    2.5 percent above or below the target amount, then a portion of these
                    profits or losses were subject to risk sharing. 24 Beginning in 2008, the
                    risk-corridor thresholds widened and plans share a portion of their
                    profits or losses if allowable risk-corridor costs are at least 5 percent
                    above or below the target amount. 25 This change will decrease the
                    percentage of unexpected profits that plan sponsors will owe to CMS
                    and increase the percentage of unexpected profits sponsors will retain.
                    This change will also decrease the percentage of plan sponsors’ losses
                    that they are permitted to shift to CMS and increase the percentage of
                    losses that plan sponsors will have to bear.

                    According to an October 2007 Office of Inspector General (OIG) report,
                    plan sponsors owed CMS an estimated net total of $2.74 billion as a
                    result of risk-sharing payments for plan year 2006. 26 The report
                    concluded that the risk-sharing payments were caused by plan
                    sponsors, in general, overestimating their bid amounts.
                    CMS Oversight of Plan Sponsors’ Bid Amounts
                    Within CMS, the Office of the Actuary (OACT) is responsible for the
                    review, approval, and audit of bid amounts. Before bid amounts are
                    approved, OACT evaluates bid amounts using a desk review process. 27
                    The desk review examines bid elements for reasonableness by
                    comparing them to the bid elements of other plan sponsors and to
                    industry standards. According to OACT staff, OACT contracts with
                    actuarial firms to follow up on any bid element determined to be an
                    outlier. After reviewing documentation, actuarial contractors
                    recommend to OACT whether it should approve the bid amount. 28




                      23 42 CFR § 336(c).
                      24 42 CFR § 423.336.
                      25 Ibid.
                      26 OIG, “Medicare Part D Sponsors: Estimated Reconciliation Amounts for 2006,”
                    OEI-02-07-00460.
                      27 42 CFR § 423.272.
                      28 “CMS Bid Desk Review Manual,” August 2007, p. 5.




 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                 5
I N T R O D        U C T     I O N


                    OACT makes the final determination and contracts with approved plan
                    sponsors in September of each year. 29
                    CMS currently uses bid audits as part of its oversight of Medicare
                    Part D bidding. In addition, according to CMS staff, CMS intends to
                    supplement its oversight with information gathered from financial
                    audits. Two separate offices within CMS are responsible for completing
                    the audits. OACT is responsible for conducting bid audits of selected
                    plan sponsors. The Office of Financial Management (OFM) is
                    responsible for conducting financial audits. Although financial audits
                    do not focus primarily on bid amounts, they do review base period data
                    used to determine the bid amount.
                    Bid audit. After bid amounts are approved, OACT selects some plan
                    sponsors for bid audits. These are in-depth reviews of the
                    reasonableness of the data, range of estimates, and support for actuarial
                    assumptions used to calculate the bid amount. They are conducted
                    between October and February. To complete bid audits, OACT
                    contracts with actuarial firms.

                    There are two types of bid audit findings: material findings and
                    observations. 30 According to CMS’s Bid Audit Procedures, material
                    findings are findings that, if corrected, would lead to reduced payments
                    from CMS, additional benefits to enrollees, or reduced enrollee
                    premiums. However, according to conversations with OACT staff, in
                    practice, a material finding is defined as a significant issue that, if
                    corrected, would result in at least a 1-percent change in the bid amount
                    or at least a 10-percent change in any bid element. Observations are all
                    other nonmaterial findings. Material findings and observations may
                    include mechanical mistakes, assumptions determined to be
                    unreasonable, lack of supporting documentation, inaccurate reporting of
                    expenses, and failure to follow bid instructions.
                    The number of plan sponsors whose bid amounts are audited by OACT
                    may vary from year to year. OACT is not required to complete a specific
                    number of bid audits each year. When deciding which plan sponsors to
                    audit, OACT uses both a targeted and a random selection process.


                      29 “Solicitation for Applications for New Prescription Drug Plans (PDP) Sponsors.”

                    Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/04_RxContracting_ApplicationGuidan
                    ce.asp#TopOfPage. Accessed on November 1, 2007.
                      30 CMS, “Audit Procedures for Calendar Year 2008 Bids,” p. 3.




 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                     6
I N T R O D        U C T      I O N


                    OACT targets some plan sponsors because of issues that arose during
                    the desk review process. Other plan sponsors are selected randomly.
                    OACT did not audit the same plan sponsors in plan years 2006 and
                    2007.

                    After deciding which plan sponsors to audit, OACT selects a sample of
                    plans offered by the plan sponsor. Because plan sponsors may offer
                    more than one plan in different regions, plan sponsors may submit
                    many different bid amounts. OACT usually selects three plans to audit
                    from each selected plan sponsor. When selecting which plans to audit,
                    OACT attempts to select bid amounts that cover several regions as well
                    as basic and enhanced plans.
                    Financial audits. After all data for a plan year are submitted and
                    reconciled, OFM selects plan sponsors for a financial audit. Financial
                    audits verify that plan sponsors’ reported financial data are credible and
                    accurate. The MMA requires that a financial audit be conducted each
                    year for one-third of all plan sponsors. 31
                    Financial audits cover a wide range of topics and could reveal problems
                    that may result in overpayment to plans, including underreporting of
                    rebates and inaccurate claims data. In addition, financial audits
                    compare base period data reported in the bid-pricing tool with actual
                    data. 32


                    METHODOLOGY
                    Scope
                    This study assesses the results of bid audits and the extent of CMS’s use
                    of bid audits and financial audits to oversee Part D bidding. We did not
                    evaluate the desk review process. In addition, the study does not
                    conduct a separate audit of bid amounts.
                    Data Collection
                    To examine material findings and observations identified in bid audits,
                    we obtained from OACT all bid audit reports of plan sponsors conducted
                    for plan years 2006 and 2007. After excluding 1 incomplete bid audit



                      31 MMA § 112, P.L. No. 108-173 § 112, Social Security Act, § 1860D-12(b)(3)(C),
                    42 U.S.C. § 1395w-112(b)(3)(C).
                      32 CMS, “Agreed Upon Procedures for the Financial Audit of Prescription Drug Plans,
                    Division of Capitated Plan Audit,” October 2007.



 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                      7
I N T R O D        U C T     I O N


                    from plan year 2006 from our analysis, there were 48 and 55 bid audits
                    completed for plan years 2006 and 2007, respectively, for a total of 103.

                    To understand how CMS audits Part D bids, we conducted two
                    structured in-person interviews with CMS staff. The first interview,
                    conducted in December 2007, was with OACT staff. Our discussion
                    addressed specific details of the bid audit process, including the use of
                    actuarial contractors to review bid audits, the use of bid audit findings,
                    and possible consequences for material findings identified in a bid audit.

                    The second CMS interview, conducted in January 2008, was with OFM
                    staff. Our discussion addressed specific components of the financial
                    audits that review bid elements.

                    In addition, to further understand the bid audit process, we interviewed
                    the three bid audit contractors that completed the most bid audits for
                    plan year 2006. The interviews provided background information about
                    the bid audit process and a description of the specific components of the
                    bid audit, including the key principles of actuarial auditing.
                    Data Analysis
                    We counted the number of unique material findings and observations in
                    each bid audit. A bid audit of a plan sponsor includes multiple audits of
                    unique plans. Therefore, if the same material finding or observation
                    applied to two or more plans reviewed by the bid audit, we counted the
                    material finding or observation only once for the plan sponsor. To
                    analyze the types of bid audit material findings, we grouped the unique
                    bid audit findings into specific content categories that we developed
                    after reviewing all material findings.

                    To analyze the effect of material findings on the bid amount, we
                    reviewed the explanation of each unique material finding within a bid
                    audit. Because material findings often only give the direction a
                    correction would have on the bid amount (i.e., raise or lower the bid
                    amount) as opposed to a specific amount to be corrected, we analyzed
                    the direction of each individual material finding, not the net effect that
                    all of the material findings in one bid audit would have on the bid
                    amount. We also determined the number of material findings that were
                    not quantifiable or did not report a specific direction.

                    To examine the bid audit process, we reviewed: (1) instructions
                    prepared by OACT to assist the plan sponsors with the development of
                    their bid amounts for plan years 2006, 2007, and 2008; (2) guidance
                    prepared by OACT to assist actuarial contractors with the bid audits for


 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                     8
I N T R O D        U C T     I O N


                    plan years 2006, 2007, and 2008; (3) guidance prepared by OACT to
                    assist actuarial contractors with the desk review of bid amounts for plan
                    years 2006, 2007, and 2008; and (4) relevant ASOP. In addition, we
                    analyzed OACT staff responses to our interview questions.

                    To examine the financial audit process, we reviewed the guidance
                    prepared by OFM to assist the accounting firms in their financial audits
                    of plan sponsors for plan year 2006. CMS has not developed financial
                    audit guidance for plan years 2007 or 2008. In addition to reviewing the
                    financial audit guidance, we analyzed OFM staff responses to our
                    interview questions.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00560    CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                   9
Δ       F I N D I N G S



One-quarter of all bid audits completed for plan                   For plan years 2006 and 2007,
    years 2006 and 2007 identified at least one                    OACT completed 103 bid audits, of
                                material finding                   which 25 percent identified at least
                                                                   one material finding. In addition,
                             70 percent identified at least one observation. Overall, 76 percent of bid
                             audits identified either a material finding or an observation.
                             Of the 48 bid audits completed for plan year 2006, 17 percent
                             (8) identified at least one material finding. Seven of the eight bid audits
                             identified only one material finding; the eighth bid audit identified four.
                             Fifty-six percent (27) of bid audits completed for plan year 2006
                             identified at least one observation. The number of observations per bid
                             audit ranged from one to seven.

                             Of the 55 bid audits completed for plan year 2007, 33 percent
                             (18) identified at least one material finding. The number of material
                             findings identified per bid audit ranged from one to five. Eighty-two
                             percent (45) identified at least one observation. Of these, the number of
                             observations per bid audit ranged from 1 to 11.

                             Table 1 below provides a breakout of the number of bid audits with and
                             without at least one material finding or observation.

                      Table 1: Number of Bid Audits With and Without Material
                      Findings and Observations by Plan Year
                                                                             Plan Year 2006   Plan Year 2007
                      At Least One Material Finding and No
                                                                                         3                3
                      Observations

                      At Least One Material Finding and at
                                                                                         5               15
                      Least One Observation

                      No Material Findings and at Least
                                                                                        22               30
                      One Observation

                      No Findings and No Observations                                   18                7


                         Total                                                          48               55
                 Source: OIG analysis of bid audits, 2008.


                             Between plan years 2006 and 2007, the number of bid audits with at
                             least one material finding and at least one observation increased
                             200 percent, from 5 for plan year 2006 to 15 for plan year 2007.
                             However, we cannot determine the cause of the increase. Between plan
                             years 2006 and 2007, instructions to plan sponsors and bid audit
                             contractors changed. As a result, we cannot determine whether:

    OEI-05-07-00560          CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                10
F   I N D I N G               S


                             (1) plan sponsors’ bid amounts were developed with more errors or
                             (2) the change in actuarial contractors’ methods and criteria for
                             detecting material findings or observations caused them to detect more
                             findings.
                             The largest number of bid audits identified material findings involving
                             nonpharmacy costs and methodology errors
                             Of the 26 bid audits from plan years 2006 and 2007 with material
                             findings, 9 bid audits identified material findings involving
                             nonpharmacy costs and 7 identified material findings involving
                             methodology errors. Table 2, below, shows the number of bid audits
                             with material findings by finding type and plan year. 33


                        Table 2: Number of Bid Audits With Material Findings by
                        Type of Finding and Plan Year
                        Type of Finding                              Plan Year 2006   Plan Year 2007
                        Nonpharmacy Costs                                         2               7
                        Methodology Errors                                        3               4
                        Cost Sharing                                              1               4
                        Actuarial Certification                                   1               3
                        Risk Scores                                               3               1
                        Rebates                                                   0               2
                        Pharmacy Costs                                            0               1
                      Source: OIG analysis of bid audits, 2008.



                             Nonpharmacy costs. Material findings regarding nonpharmacy
                             expenses covered many areas, including the allocation of administrative
                             costs between plans, nonpharmacy cost amounts, and the consistency of
                             the gain/loss margin with business plans. Nonpharmacy costs as
                             outlined in the bid-pricing tool include: marketing and sales, gain/loss,




                               33 Because a bid audit may have material findings of different types, the number of bid
                             audits with material findings in the table is higher than the number of bid audits
                             conducted.




    OEI-05-07-00560          CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                          11
F   I N D I N G        S


                      the net cost of private reinsurance, direct administration, 34 and indirect
                      administration. 35
                      In one bid audit completed for plan year 2006, the actuarial contractor
                      found that the nonpharmacy expenses were unreasonably high.
                      Specifically, the actuarial contractor stated that “insufficient attention
                      had been given to this element of the bid, resulting in significantly
                      higher expense levels than were reasonable for this product.”

                      In another bid audit, completed for plan year 2007, the actuarial
                      contractor found that gain/loss margins were inconsistent with the
                      business plan and bid instructions. In particular, the actuarial
                      contractor noted that “the bid sponsor did not perform any actuarial
                      analysis to support the gain margin.” The actuarial contractor also
                      noted that the gain margin was higher than the profit target shown in
                      the sponsor’s 2006 business plan for plan year 2007 operations.

                      Methodology errors. Material findings involving methodology errors
                      included calculation errors and unreasonable actuarial assumptions.
                      For example, in one bid audit, conducted for plan year 2006, the
                      actuarial contractor found that the plan sponsor made an error in the
                      methodology used to project claims data. The actuarial contractor noted
                      that correcting this error would have decreased the bid amount by
                      4 percent, or $8.95 per member per month.

                      In another bid audit, conducted for plan year 2007, the actuarial
                      contractor found the induction factor used to estimate utilization to be
                      unreasonable. 36 In particular, the actuarial contractor concluded that
                      the induction effects used when calculating the bid amount were
                      unreasonable, resulting in an incorrect assumption of utilization.

                      Other categories. Material findings related to cost-sharing involve the
                      amount of cost-sharing revenue included when calculating the bid
                      amount. For example, in one bid audit for plan year 2007, the actuarial
                      contractor found that “the documentation of the pricing in the [Part D]


                        34 Direct administration costs include functions that are directly related to the
                      administration of the Part D plan. These functions may include customer service, billing
                      and enrollment, and claims administration.
                        35 Indirect administrative costs include functions that may be considered “corporate
                      services,” such as account operations, actuarial services, legal services, and human
                      resources.
                        36 The induction factor is the number that is used to adjust utilization to account for
                      changes in benefit structure.



    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                          12
F   I N D I N G        S


                      bid sheets shows that the benefit was priced with a $5 generic copay
                      rather than $4,” which the plan sponsor should have used when
                      calculating cost-sharing revenue.

                      Material findings related to actuarial certifications document whether
                      the plan sponsor’s actuary followed appropriate ASOP. For example, in
                      one bid audit, the actuarial contractor stated that it did not believe that
                      the supporting documentation supplied by the plan sponsor was
                      consistent with ASOP No. 31, Documentation in Health Benefit Plan
                      Ratemaking.

                      Material findings involving risk scores deal with how the plan sponsor
                      projected expected risk scores when calculating the bid amount. Risk
                      scores are supposed to represent the health status of beneficiaries. For
                      example, in one plan year 2006 bid audit, the actuarial contractor found
                      that the risk score was inaccurately projected, resulting in the bid
                      amount being too high.

                      Material findings involving rebates deal with how plan sponsors applied
                      rebates to their bids. For example, in one bid audit, the actuarial
                      contractor found that the rebates were not trended at the same rate
                      used to trend drug costs.

                      The one material finding related to pharmacy costs involved the
                      development of mail-order prescription costs. In particular, for the plan
                      year 2007 bid audit, the actuarial contractor found that the costs of
                      mail-order prescriptions used to calculate the bid amount were higher
                      than the costs contracted with the mail-order pharmacy.
                      Regardless of whether they increase or decrease the bid amount, material
                      findings are problematic to Medicare Part D
                      Regardless of whether a finding indicates that a bid amount was too
                      high or too low, any material finding could negatively affect the Part D
                      program.

                      If a material finding shows that the bid amount was too high, then the
                      Government, through its direct subsidy payments, and beneficiaries,
                      through premium payments, would each end up paying too much for
                      Part D drug coverage. The Government’s overpayment would be
                      partially corrected during the reconciliation and risk-sharing processes.
                      However, the amount recovered would depend, in part, on the category
                      of material finding. In general, although used within the technical
                      calculations, nonpharmacy costs are excluded during reconciliation and
                      risk-sharing. In addition, the beneficiary’s premium overpayment


    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                     13
F   I N D I N G        S


                      would not be corrected. For plan years 2006 and 2007, 42 percent of bid
                      audits with a material finding had at least one material finding that
                      revealed the bid amount to be too high. 37
                      On the other hand, material findings that reveal the bid amount to be
                      too low could affect the competitive nature of the program by limiting
                      beneficiary choice. A bid amount that is too low could result in the
                      regional benchmark being set too low. The regional benchmark is a
                      weighted average of plan premiums, based on bid amounts, for a given
                      region. 38 Because the regional benchmark determines the amount of
                      the low-income premium subsidy, if the benchmark is too low,
                      low-income beneficiaries may not have access to the best plans available
                      to meet their needs. 39 For plan years 2006 and 2007, 50 percent of bid
                      audits with a material finding had at least one material finding that
                      revealed the bid amount to be too low. 40



           Bid audits are not designed to result in            As of April 2008, OACT had not
                      adjustments to bid amounts               used bid audit findings to adjust
                                                               plan sponsors’ bid amounts,
                      payments to plan sponsors, or beneficiary premiums. In addition, bid
                      audits are not designed to lead to sanctions against plan sponsors.
                      Instead, OACT uses material findings to make programmatic changes to
                      the bid submission, review, and audit processes. However, without any
                      consequences to plan sponsors for material findings identified in bid
                      audits, their deterrent effect is limited.
                      According to OACT staff, adjusting bid amounts or imposing sanctions
                      against plan sponsors as a result of bid audit material findings is
                      problematic
                      According to interviews with OACT staff, using bid audits to adjust bid
                      amounts is problematic because the audits are completed after OACT



                        37 Bid audits may identify multiple material findings, which could have different effects

                      on the bid amount. Because material findings often give only the direction a correction
                      would have on the bid amount as opposed to a specific amount, we analyzed the direction of
                      each individual material finding, not the net effect of all of the material findings in one bid
                      audit.
                        38 42 CFR § 423.780(b)(2).
                        39 42 CFR § 423.780(b)(1).
                        40 In addition, for plan years 2006 and 2007, some bid audits with at least one material
                      finding had only material findings that were unquantifiable.



    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                           14
F   I N D I N G        S


                      has already signed contracts with the plan sponsors and because some
                      of the material findings cannot be quantified.

                      OACT staff assert that because of the timing of bid audits, financial
                      recoveries cannot be based on the bid amount. Bid audits for the plan
                      year are not completed until February, 2 months after the start of the
                      plan year. Therefore, beneficiaries are already enrolled in plans by the
                      time bid audits identify any material findings. Any changes in the bid
                      amount could affect beneficiaries’ premiums or benefits. However,
                      beneficiaries could not switch plans as a result because they would not
                      be in an open enrollment period until the next plan year. Further,
                      changing bid amounts could affect the regional benchmark or the
                      national average bid amount or create an uneven competitive
                      environment among plans.

                      Furthermore, not all bid audits had material findings that were
                      quantifiable. For plan years 2006 and 2007, 31 percent of bid audits
                      with a material finding had at least one material finding that was not
                      quantifiable. In some instances, the material finding was not
                      quantifiable because it involved poor documentation or inadequate
                      actuarial certifications. In other cases, the actuarial contractor may
                      have been unable to assign a value to the error in the bid. For example,
                      in one bid audit, the actuarial contractor could not quantify the effect of
                      the three material findings and “rather large number” of observations
                      identified. However, the actuarial contractor did note that “having this
                      many irregularities in the bid development is an issue. The lack of
                      attention to detail and diligence in handling many aspects of the bid
                      development calls into question the accuracy of the bottom line pricing.”

                      In addition, although plan sponsors may be sanctioned for
                      misrepresenting or falsifying data submitted to CMS, 41 OACT staff
                      assert that bid audits are not designed to identify whether errors are
                      misrepresentations, making it difficult to impose sanctions on plan
                      sponsors. In cases in which a plan sponsor falsifies or misrepresents
                      information provided to CMS, the plan sponsor may be subject to an
                      intermediate sanction. 42 Sanctions may include civil monetary
                      penalties, suspension of enrollment, or suspension of payment. 43 No
                      sanctions resulting from material findings identified in bid audits had

                        41 42 U.S.C. § 1395w-112(b)(3)(E).
                        42 Ibid.
                        43 Ibid.




    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                     15
F   I N D I N G        S


                      been issued as of April 2008. According to OACT staff, there have yet to
                      be any situations in which a referral for sanction would have been
                      appropriate.
                      Bid audits influence the submission, review, and audit of future bid amounts
                      OACT staff assert that they use bid audit material findings to make
                      programmatic changes, including improvements to bid submissions, for
                      the following plan year. A review of bid submission instructions to plan
                      sponsors shows that OACT created a new actuarial certification process
                      for bid amounts submitted for plan year 2008. In addition, OACT
                      changed the instructions to better inform plan sponsors as to what types
                      of documents should be provided as supporting documentation because
                      some initial bid audits identified instances of poor documentation.

                      OACT staff also stated that they use bid audit material findings in the
                      desk review process to help target problem areas for review. Beginning
                      with the plan year 2008 desk review process, OACT provided the
                      reviewing actuary with a summary of the prior year’s bid audit material
                      findings. According to the desk review guide for plan year 2008,
                      reviewers are instructed to ensure that issues identified in plan year
                      2007 bid audits were addressed and not repeated. In particular, the
                      desk review guide instructs reviewers to look for supporting
                      documentation, consider policy changes that would make an issue
                      irrelevant, or request an explanation of how issues were addressed.
                      Further, because a plan sponsor often uses the same methodology when
                      calculating bid amounts for all of its plans, reviewers are instructed to
                      examine all of a plan sponsor’s bid amounts to ensure that issues were
                      addressed, not just bid amounts for the plans that were previously
                      audited.

                      OACT has also used material findings to improve the bid audit process
                      itself. For plan year 2006, material findings revealed a problem with
                      consistency between actuarial contracts. For plan year 2006, only four
                      of seven contractors identified material findings in the bids they
                      reviewed. In addition, material findings identified by one contractor
                      accounted for half of all material findings identified.

                      To address the lack of consistency, CMS developed more detailed bid
                      audit instructions for contractors for plan year 2007 and made further
                      revisions for plan year 2008. The clarified guidance seems to have
                      improved consistency. For plan year 2007, six of seven contractors
                      identified material findings and the material findings were more evenly
                      distributed among contractors.

    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                   16
F   I N D I N G        S



As of April 2008, only 4 percent of the required            CMS is statutorily required to
                                                            conduct a financial audit of at
  financial audits of plan year 2006 had begun
                                                            least one-third of plan sponsors
                      that offered a Part D plan in plan year 2006. 44 However, as of April
                      2008, OFM staff stated that only 4 percent of the required number of
                      financial audits had started. Furthermore, OFM staff indicated that
                      they have contracted for only 81 of the 165 statutorily required financial
                      audits for plan year 2006. OFM staff did not have an estimate of when
                      the other contracted financial audits would begin or when they would
                      contract for the remaining audits.
                      Without financial audits, CMS will not be able to review the accuracy of
                      the base period data used as the foundation of the bid amount. Bid
                      audits focus on actuarial assumptions and not the accuracy of base
                      period data. When reviewing base period data as part of the bid audit,
                      actuarial contractors ensure that the base period data used to calculate
                      the bid amount were reasonable and consistent. 45 However, according
                      to relevant ASOP, actuaries are not required to determine whether data
                      supplied by others is falsified or intentionally misleading, to develop
                      additional data analysis to look for questionable or inconsistent data, or
                      to audit the data. 46 Although the accuracy of base period data is not
                      reviewed during a bid audit, one element of a financial audit reviews
                      the accuracy of base period data.
                      Financial audits review the accuracy of base period data used to calculate
                      the bid amount
                      Financial audits review the accuracy of data submitted to CMS for a
                      given plan year. Data submitted to CMS for a given plan year become
                      the base period data for a subsequent plan year. According to CMS
                      staff, one element of a financial audit reviews the accuracy of base
                      period data used to calculate a bid amount.
                      Starting with plan year 2008, CMS intends that financial audits will
                      assess the accuracy of base period data used to calculate the bid
                      amount. Base period data used to calculate the bid amount are data
                      from the most recent, complete plan year available at the time the bid

                         44 MMA, P.L. No. 108-173 § 112, Social Security Act, § 1860D-12(b)(3)(C), 42 U.S.C.
                      § 1395w-112(b)(3)(C).
                        45 CMS, “Audit Procedures for Calendar Year 2008 Bids,” pp. 8–9.
                        46 Actuarial Standards Board, “ASOP No. 23, Data Quality.” Available online at
                      http://www.actuarialstandardsboard.org/pdf/asops/asop023_097.pdf. Accessed on
                      March 25, 2008.



    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                       17
F   I N D I N G        S


                      amount is calculated. Because bid amounts are submitted to OACT
                      6 months before the beginning of the next plan year, base period data
                      must come from 2 years prior. Thus, bid amounts for plan year 2008
                      are based on data from plan year 2006, the first full year of data
                      available when plan sponsors submitted bid amounts in June 2007. As
                      a result, the plan year 2006 financial audits include a review of the base
                      period data used to calculate the plan year 2008 bid amount.

                      Given the timing of various aspects of the program, the earliest that
                      financial audit findings regarding base period data could be addressed
                      is in the next year’s bid submission. For example, the earliest that plan
                      year 2006 financial audit findings involving plan year 2008 base period
                      data could be addressed is with the plan year 2009 bid submission.
                      Because financial audits review data submitted by plan sponsors for a
                      given plan year, financial audits cannot begin until final data are
                      submitted and reconciled. Therefore, financial audits can begin only at
                      least 6 months after the plan year—the same time bid amounts using
                      those data are approved. Chart 1, on the next page, provides a timeline
                      of audits of plan year 2008 bid amounts.




    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                    18
      F     I N D I N G                S




  Chart 1. Timeline of Audits of Plan Year 2008 Bid Amounts and Base Period

                                            June 2007: Plan year
                                            2008 bid amounts
                                            submitted to OACT
                                                  June–September 2007:
                                                  OACT completes desk
                                                  review of plan year 2008
                                                  bid amounts
                                                        September 2007: CMS
                                                        contracts with plan
                                                        sponsors for approved bid
                                                                   October–February 2008:
          January–December 2006:                                   OACT conducts bid audits
          Base period data for plan                                of plan year 2008 bid
          year 2008 bid amount                                     amounts

                                                                                          June 2008: Plan year   June 2009: Plan year
                                                                                          2009 bid amounts       2010 bid amounts
                                                                                          submitted to OACT      submitted to OACT




                2006                          2007                                          2008                      2009



                                                                       October 2007–October 2008:
                                                                       OFM should conduct financial
                                                                       audits for plan year 2006

                                              June–October 2007:
                                              Reconciliation of plan
                                              year 2006 data



Source: OIG analysis of bid audits, 2008.



                                     Delaying financial audits increases the risk of plan sponsors repeating
                                     mistakes with their base period data in future plan years
                                     Even accounting for the normal programmatic delay, CMS has further
                                     delayed the start of most of the plan year 2006 financial audits. When
                                     financial audits do not begin promptly, OFM’s ability to identify any
                                     findings is delayed. This in turn delays plan sponsors’ opportunities to
                                     correct findings and increases the risk of plan sponsors repeating the
                                     same mistakes to the detriment of beneficiaries and the program.

                                     OFM expects the seven financial audits already started to be completed
                                     before October 2008. If the financial audits are completed before OACT
                                     approves the plan year 2009 bid amounts in September 2008, OACT


           OEI-05-07-00560           CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                                                 19
F   I N D I N G        S


                      may be able to review bid amounts to ensure that financial audit
                      findings regarding plan year 2008 base year data are not repeated in
                      plan year 2009.

                      However, the remaining 158 financial audits that OFM has not begun
                      are unlikely to be completed before September 2008. Therefore, OACT
                      will be unable to review bid amounts to ensure that findings regarding
                      plan year 2008 base period data are not repeated until plan year 2010 or
                      later.




    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                 20
Δ   R E C O M M E N D A T I O N S



                  Because bid amounts are the basis for beneficiary premiums and
                  Government subsidies, both the Federal Government and beneficiaries
                  are affected when bid amounts are not calculated appropriately. Bid
                  audits for plan years 2006 and 2007 identified at least one material
                  finding for 25 percent of audited plan sponsors. However, CMS did not
                  penalize plan sponsors for material findings identified in bid audits. In
                  addition, as of April 2008, CMS had yet to complete financial audits to
                  determine the accuracy of base period data used to calculate bid
                  amounts.

                  To improve CMS’s oversight of Part D bid amounts, we recommend that
                  CMS:
                  Modify the Bid Audit Process To Hold Plan Sponsors More Accountable for
                  Material Findings Identified in Bid Audits
                  Regardless of whether they increase or decrease the bid amount,
                  material findings are problematic for beneficiaries and the program.
                  Given limited program resources, modifying the bid audit process to not
                  only improve future bid submissions but also hold plan sponsors more
                  accountable for findings in the current bid could increase the
                  effectiveness of CMS’s oversight.

                  To accomplish this, CMS could: (1) modify the way it responds to
                  current bid audit findings and/or (2) modify the entire bid audit process.

                  CMS could modify the way it responds to current bid audit findings by
                  developing alternative methods to hold plan sponsors accountable. For
                  example, when a bid audit identifies several material findings, CMS
                  could require a plan sponsor, at its own expense, to have an
                  independent, outside actuary certify the subsequent year’s bid amount.
                  CMS could also consider seeking the authority to impose sanctions
                  against plan sponsors when material findings meet a specified threshold
                  regardless of the reason for the material finding.

                  In addition, CMS could modify the entire bid audit process to:
                  (1) identify instances in which errors are misrepresentations and
                  (2) quantify errors that affect payments to plan sponsors. Modifying the
                  bid audit process would enable CMS to pursue stronger enforcement
                  and corrective actions. For example, if instances of misrepresentation
                  are identified, CMS could refer them to its law enforcement partners for
                  possible sanctions. For quantified errors that affect payments to plan



OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                    21
R   E C O        M M E N D A T                  I O N              S


                      sponsors, CMS could consider seeking the authority to correct payments
                      to plan sponsors at the end of the plan year.
                      Conduct the Required Number of Financial Audits in a Timely Manner
                      Although financial audits are not focused primarily on the bid amount,
                      they provide important oversight regarding the accuracy of the base
                      period data used to calculate the bid amount. Because CMS oversight of
                      bid amounts is not complete without a review of the base period data’s
                      accuracy, CMS should conduct timely financial audits.

                      When financial audits do not begin as scheduled, OFM’s identification of
                      any findings can be delayed. This, in turn, can delay plan sponsors’
                      opportunities to correct findings and increase the risk of plan sponsors
                      repeating the same mistakes. For the 158 Part D financial audits OFM
                      has yet to begin, it is unknown when plan sponsors will be able to
                      address any potential findings, but it will most likely not be until plan
                      years 2010 or later.

                      For financial audit findings related to base period data to be most
                      useful, collaboration between OFM and OACT is important. OFM and
                      OACT staff both acknowledged the need for collaboration regarding the
                      use of audits as an oversight tool for Part D bidding. According to OFM
                      staff, OFM plans to refer all base period data-related findings to OACT
                      for followup. In addition, OACT staff plan to review OFM findings to
                      determine how findings can be integrated into the bid submission, desk
                      review, bid instructions, and training process. We encourage OACT and
                      OFM to continue collaborating on financial audit findings.

                      In addition, OFM should strive to provide OACT with any findings
                      related to the base period data as early as possible. In particular, OFM
                      could provide OACT with findings relating to base period data during
                      the desk review process. Getting findings at this time would enable
                      OACT to evaluate the accuracy of the bid amount, in light of concerns
                      about the base period data, before entering into a contract with plan
                      sponsors. To provide OACT with bid-related financial audit findings
                      during the desk review would require OFM to complete this aspect of
                      the financial audits in the summer, prior to the completion of the full
                      audit expected in the fall. Financial audits could be conducted in
                      stages, with the audit of the base period data completed first.




    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                  22
R   E C O        M M E N D A T                  I O N              S



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS expressed concerns with how the bid audit findings were depicted
                      in this report. CMS pointed out that the review was conducted on bid
                      audits undertaken during the first 2 years of Part D. During this time,
                      plan sponsors were attempting to navigate a complex, new program.
                      Further, they did not have Part D data to use in developing their bids.
                      Thus, CMS concluded that the newness of the program contributed to
                      the number of bid audit findings. CMS also expressed concern that the
                      report overstates the financial impact of bid audit findings. In addition,
                      CMS provided a few technical comments. We revised language in the
                      Background section where appropriate.

                      OIG does not disagree that the newness of the program may have
                      contributed to the number of bid audit findings. However, the number
                      of bid audit findings did not decrease in 2007 as plan sponsors became
                      more familiar with Part D. Thus, there are likely additional factors
                      contributing to the number of bid audit findings.

                      In response to CMS’s other concern, that the report overestimates the
                      financial impact of bid audit findings, the report does not estimate the
                      financial impact of bid audit findings. In fact, the report points out that
                      31 percent of bid audits with a material finding had at least one
                      material finding that was not quantifiable.

                      In response to our recommendations, CMS did not agree or disagree
                      with our recommendation to modify the bid audit process to hold Part D
                      sponsors more accountable for material findings, but stated that it will
                      carefully consider the recommendation. CMS agreed that it should
                      conduct the required financial audits in a timely manner.

                      To strengthen the bid audit process, CMS stated that it will consider
                      using the authority it has to ensure that Part D sponsors comply with
                      Part D operational requirements. To the extent that bid audit findings
                      reflect a sponsor’s substantial failure to comply with these
                      requirements, CMS stated that it will consider taking compliance or
                      enforcement actions. CMS also indicated that it would report any
                      deliberate misrepresentations it uncovers to the appropriate authority.
                      CMS reiterated the limitation it faces in holding plan sponsors
                      financially accountable for material findings identified in bid audits,
                      stating that it has no legal authority to revise bid amounts for any
                      reason once they are accepted.


    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                     23
R   E C O        M M E N D A T                  I O N              S


                      Recognizing the difficulty of holding plan sponsors accountable using
                      the current bid audit process, OIG continues to recommend that CMS
                      consider modifying the bid audit process to: (1) identify instances in
                      which errors are misrepresentations and (2) quantify errors that affect
                      payments to plan sponsors. Modifying the bid audit process would
                      enable CMS to pursue stronger enforcement and corrective actions.
                      CMS should also consider developing alternative methods to hold plan
                      sponsors accountable for bid audit findings, such as sanctions. Holding
                      plans accountable for bid audit findings that reflect noncompliance with
                      operational requirements enhances accountability, but does not hold
                      plan sponsors accountable for the full range of bid audit findings.
                      With respect to financial audits, CMS reported that funding challenges
                      prevented it from carrying out the statutory requirement to complete
                      financial audits on one-third of plan sponsors annually. CMS stated
                      that it has requested sufficient funding from Congress, but Congress
                      has not acted on those requests. Because of these continuing financial
                      constraints, CMS stated that it is revising the audit protocols to conduct
                      financial audits in the most efficient manner possible.

                      OIG continues to recommend that CMS take the steps necessary to
                      ensure that it is meeting its statutory obligation to conduct financial
                      audits on one-third of plan sponsors each year. In addition, for financial
                      audit findings to be most useful, collaboration between OFM and OACT
                      is important. OIG encourages OFM to establish a process for providing
                      OACT with any findings related to the base period data as early as
                      possible.

                      For the full text of CMS’s comments, see Appendix B.




    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                   24
Δ   A P P E N D I X                         ~          A


     Plan Year 2009 Bid-Pricing Tool




OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   25
A P P E N D        I X     ~            A




 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   26
A P P E N D        I X     ~            A




 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   27
A P P E N D        I X     ~            A




 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   28
A P P E N D        I X     ~            A




 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   29
A P P E N D        I X     ~            A




 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   30
A P P E N D        I X     ~            A




 OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   31
Δ   A P P E N D I X                         ~           B


     Agency Comments




OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   32
A   P   P E N D       I X     ~            B




    OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S   33
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.

                  Suzanne Bailey served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Chicago
                  regional office who contributed to the report include Tina Sacks; other
                  central office staff who contributed include Cynthia Thomas.




OEI-05-07-00560   CMS AUDITS   OF   M E D I C A R E PA R T D B I D S                   34
